OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’s
IMPLEMENTATION OF
INTERNET PROTOCOL
VERSION 6
AUDIT REPORT NO. A-000-08-006-P
September 4, 2008




WASHINGTON, DC
Office of Inspector General


September 4, 2008

MEMORANDUM

TO:                  Acting Chief Information Officer, Phil Heneghan

FROM:                IG/A/ITSA, Director, Melinda Dempsey /s/

SUBJECT:             Audit of USAID’s Implementation of Internet Protocol Version 6
                     (Audit Report No. A-000-08-006-P)

This memorandum transmits the Office of Inspector General’s final report on the subject audit.
The report contains no recommendations. In finalizing the report, we considered your written
comments on our draft report and included those comments in their entirety in appendix II of this
report.

I appreciate the cooperation and courtesies extended to my staff during this audit by members
of your office.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objectives ................................................................................................................ 5

Audit Findings ................................................................................................................. 6

Did USAID develop a complete inventory of existing
Internet Protocol version 6 compliant devices in
accordance with Office of Management and Budget
guidance? ........................................................................................................................ 6

Did USAID complete an analysis to determine the fiscal
and operational impacts and risks of migrating to Internet
Protocol version 6 in accordance with Office of
Management and Budget Guidance? ............................................................................... 7

Evaluation of Management Comments ......................................................................... 9

Appendix I – Scope and Methodology .......................................................................... 10

Appendix II – Management Comments ......................................................................... 12
SUMMARY OF RESULTS
Internet Protocol (IP) addresses are a fundamental part of the Internet. Every device
connected to the Internet needs an IP address that is represented by a unique number.
Currently, two types of IP addresses are in active use worldwide: IP version 4 (IPv4)
and IP version 6 (IPv6). IPv4 is the most commonly used version in the United States,
with the capacity to support about 4.3 billion unique addresses. IPv6 was developed to
address concerns over expected emerging demands for limited IPv4 addresses.
Although differing views exist within the Internet industry as to the pace of demand for
the remaining IPv4 addresses, demand for IP addresses is expected to increase as
more and more of the world’s population requests Internet access and uses electronic
devices that require an IP address. IPv6 is intended to meet this future demand with a
capacity to support about 3.4×1038 unique addresses. Consequently, use of both IPv4
and IPv6 is expected to overlap for some time. The hardware and software
infrastructure needed to support both IPv4 and IPv6 presents a challenge to the Federal
Government (page 3).

To guide Federal Government agencies in their transition to IPv6, in August 2005 the
Office of Management and Budget (OMB) issued memorandum M-05-22, “Transition
Planning for Internet Protocol Version 6 (IPv6),” which outlined a transition strategy for
agencies to follow and established the goal for all Federal agency backbone 1 networks
to support IPv6 by June 30, 2008 (page 3).

The Office of Inspector General, Information Technology and Special Audits Division, in
Washington, DC, conducted this audit to answer the following questions (page 5):

    1. Did USAID develop a complete inventory of existing Internet Protocol version 6
       compliant devices in accordance with Office of Management and Budget
       guidance?

    2. Did USAID complete an analysis to determine the fiscal and operational impacts
       and risks of migrating to Internet Protocol version 6 in accordance with Office of
       Management and Budget guidance?

USAID substantially complied with OMB’s memorandum M-05-22 guidance for
completing an inventory of network core requirements (page 6) and for completing its
impact analysis of migrating to IPv6 (pages 7–8). Furthermore, the Agency plans to
conduct and complete its testing of IPv6 with external peers at the Federal
Communications Commission and the Department of State prior to OMB’s stipulated
June 30, 2008, milestone date (page 5). 2 Upon completion of the IPv6 demonstration

1
   Network backbone, similarly denoted as “backbone network,” is defined by the Federal Chief
Information Officers Council’s IPv6 Working Group as the set of network transport devices (e.g.,
routers, switches) that provide the highest level of traffic aggregation and the highest level of
hierarchy in the network. Federal agencies must specify device types, number of devices, and
connectivity between devices that constitute their operational core backbone network.
2
   Subsequent to the fieldwork, the Agency notified OMB on June 10, 2008, that it had completed
its IPv6 demonstration test through the Internet with external peers in March 2008. The OIG did
not review the IPv6 demonstration test results.


                                                                                               1
tests, the Agency intends to disable IPv6 functionality on its production network
backbone but continue testing IPv6 products in a test lab environment (page 8).

The U.S. Government technical requirements and standards representing IPv6 continue
to evolve. The National Institute of Standards and Technology is working on its
publication “A Profile for IPv6 in the U.S. Government – Version 1.0, Special Publication
500-267 (2nd draft)” and associated proposed testing program to provide the technical
basis upon which long-term U.S. Government IPv6 adoption plans and policies can be
based. The profile is not intended for near-term uses (e.g., the June 2008 requirements
in M-05-22) but as a forward-looking strategic plan for 2010 and beyond. Additionally,
the profile acknowledges that “while significant commercial implementations have and
continue to emerge, broad vendor product lines are currently at varying levels of maturity
and completeness. Until there is time for significant market forces to effectively define
de facto standard levels of completeness and correctness, product testing services are
likely needed to ensure the confidence and to protect the investment of early IPv6
adopters” (pages 7–8).

However, the testing services and the standards on which testing would be based have
not been finalized. In the absence of an IPv6 compliance testing standard, USAID has
relied on vendor representations and its own testing efforts for IPv6 capability. USAID
has been identifying and replacing non-IPv6 network backbone equipment as part of its
multiyear technology refresh program to replace older equipment (page 8).

This audit is not making any recommendations at this time. In response to the draft
report, USAID has no comments in regard to the report’s findings. USAID’s comments
are included in their entirety in appendix II of this report (see page 12).




                                                                                        2
BACKGROUND
Internet Protocol (IP) addresses are a fundamental part of the Internet. Every device
connected to the Internet needs an IP address that is represented by a unique number.
Currently, two types of IP addresses are in active use worldwide: IP version 4 (IPv4)
and IP version 6 (IPv6). IPv4 was initially deployed in January 1983 and is still the most
commonly used version in the United States. IPv4 addresses, which are based on 32-bit
numbers, can support about 4.3 billion unique addresses. Deployment of the IPv6
protocol began in 1999. IPv6 was developed to address concerns over expected
emerging demands for limited IPv4 addresses. IPv6 addresses are based on 128-bit
numbers with the capacity to support about 3.4×1038 unique addresses. Although
differing views exist within the Internet industry as to the pace of demand for the
remaining IPv4 addresses, demand for IP addresses is expected to increase as more of
the world’s population requests Internet access and uses electronic devices that require
IP addresses. IPv6 is intended to meet this increased future demand. Consequently,
use of both IPv4 and IPv6 is expected to overlap for some time. The hardware and
software infrastructure needed to support both IPv4 and IPv6 presents a challenge to the
Federal Government.

To guide Federal Government agencies in their transition for IPv6, in August 2005 the
Office of Management and Budget (OMB) issued memorandum M-05-22, “Transition
Planning for Internet Protocol Version 6 (IPv6),” which established the goal for all
Federal agency backbone 3 networks to support IPv6 by June 30, 2008. OMB
memorandum M-05-22 identifies several key milestones and requirements for all Federal
agencies to follow in support of the June 30, 2008, transition date:

                By November 15, 2005
                   • Identify an IPv6 agency lead.
                   • Complete an inventory of IP-aware devices in its network
                      backbone.
                By February 28, 2006
                   • Develop a network backbone transition plan for IPv6.
                   • Complete an IPv6 progress report.
                By June 30, 2006
                   • Complete an inventory of IP-aware applications and peripherals
                      with dependencies on its network backbone.
                   • Complete an IPv6 transition impact analysis.
                By June 30, 2008
                   • Complete network backbone transition to IPv6.




3
   Network backbone, similarly denoted as “backbone network,” is defined by the Federal Chief
Information Officers Council’s IPv6 Working Group as the set of network transport devices (e.g.,
routers, switches) that provide the highest level of traffic aggregation and the highest level of
hierarchy in the network. Federal agencies must specify device types, number of devices, and
connectivity between devices that constitute their operational core backbone network.


                                                                                               3
Additionally, OMB M-05-22 tasked—

   •   The National Institute of Standards and Technology (NIST) to develop a standard
       to address IPv6 compliance for the Federal Government,
   •   The General Services Administration and Federal Acquisition Regulation Council
       to develop a suitable Federal Acquisition Regulation (FAR) amendment for use
       by all agencies, and
   •   The Federal Chief Information Officers Council’s (CIOC) Architecture and
       Infrastructure Committee to develop additional IPv6 transitional guidance for
       Federal agencies.

In January 2008, NIST issued a second draft for public comment on IPv6 compliance, “A
Profile for IPv6 in the U.S. Government – Version 1.0, Special Publication 500-267.”
NIST issued its first draft for public comment in February 2007. The General Services
Administration, the Department of Defense, and the National Aeronautics and Space
Administration issued a notice of a proposed rule in August 2006, FAR Case 2005-041,
which would require IPv6-capable products to be included in information technology
procurements to the maximum extent possible; however, this proposed rule has not
been finalized as of the date of this report. The CIOC has finalized several documents in
support of OMB M-05-22 to assist Federal agencies; these include “IPv6 Transition
Guidance,” issued in February 2006, and “Demonstration Plan to Support Agency IPv6
Compliance,” issued in January 2008.

According to the CIOC’s transitional guidance “Demonstration Plan to Support Agency
IPv6 Compliance,” the requirements for June 30, 2008, are for the network backbone
(i.e., core) only. IPv6 does not actually have to be operationally enabled by June 30,
2008. However, network backbones must be ready to pass IPv6 traffic and support IPv6
addresses. Agencies are expected to verify this new capability through testing activities
and must be able to demonstrate that they can perform at least the following functions,
without compromising IPv4 capability or network security, by June 30, 2008:

   •   Transmit IPv6 traffic from the Internet and external peers, through the network
       backbone (core) to the local area network (LAN).
   •   Transmit IPv6 traffic from the LAN, through the network backbone (core), out to
       the Internet and external peers.
   •   Transmit IPv6 traffic from the LAN, through the network backbone (core), to
       another LAN (or another node on the same LAN).

For these demonstrations, the CIOC defined a LAN as desktop or laptop personal
computers configured to send and receive IPv6 packets and connected to a network
backbone with IPv6-enabled networking equipment. External networks can belong to
another agency, an Internet service provider, or another organization capable of
transmitting IPv6 traffic. The testing of other information technology assets (e.g.,
applications) is not required for the June deadline.

USAID plans to conduct and complete its testing of IPv6 on its network backbone with
the Federal Communications Commission and the Department of State prior to OMB’s
stipulated June 30, 2008, deadline.




                                                                                       4
AUDIT OBJECTIVES
The Office of Inspector General, Information Technology and Special Audits Division,
included this audit in its fiscal year 2007 audit plan to answer the following questions:

   1. Did USAID develop a complete inventory of existing Internet Protocol version 6
      compliant devices in accordance with Office of Management and Budget
      guidance?

   2. Did USAID complete an analysis to determine the fiscal and operational impacts
      and risks of migrating to Internet Protocol version 6 in accordance with Office of
      Management and Budget guidance?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                       5
AUDIT FINDINGS
Did USAID develop a complete inventory of existing Internet
Protocol version 6 compliant devices in accordance with Office
of Management and Budget guidance?
USAID substantially complied with the Office of Management and Budget’s (OMB)
memorandum M-05-22 to prepare a complete inventory of network backbone devices.

Overall, USAID has been responsive to OMB’s Internet Protocol version 6 (IPv6)
inventory requirements. The Agency developed an initial inventory of its network
backbone in November 2005 and an updated listing in June 2006 that totaled about 715
items of equipment. USAID subsequently revised its inventory of IPv6 network
backbone equipment in November 2007 as a result of newer guidance issued by the
Federal Chief Information Officers Council (CIOC) that defined a “network backbone”
(i.e., core network) for use by executive agencies in support of OMB M-05-22. As a
result of this definitional clarification, USAID’s inventory was reduced to 24 items of
equipment, which represented the Agency’s metropolitan area network (MAN) 4 as its
network backbone. The audit team’s verification of the Agency’s inventory list identified
two more pieces of equipment that were not on the Agency’s inventory of 24 items. The
two additional pieces of equipment were determined to be part of the Agency’s network
backbone that provided redundancy to maintain availability. Although two items were
not included in the Agency’s list, the omission was not considered material. Agency
officials indicated that the two items were added after submitting their inventory listing to
OMB.




4
   A metropolitan area network (MAN) is a network that interconnects users with computer
resources in a geographic area or region. The term is applied to the interconnection of networks
in a city into a larger network.


                                                                                              6
Did USAID complete an analysis to determine the fiscal and
operational impacts and risks of migrating to Internet Protocol
version 6 in accordance with Office of Management and Budget
guidance?
USAID substantially complied with OMB’s guidance to complete its analysis of fiscal and
operational impacts and risks of migrating to Internet Protocol version 6.

OMB memorandum M-05-22 required agencies to complete an IPv6 transition impact
analysis by June 30, 2006, with the goal of completing a demonstration test of their
network backbone for IPv6 by June 30, 2008. The USAID lead person responsible for
the Agency’s transition to IPv6 stated that the transition impact analysis for IPv6 was
completed within OMB’s June 30, 2006, milestone date. A copy of USAID’s impact
analysis was obtained and reviewed. Based on this review, it was found that USAID—

   •   Completed an IPv6 transition impact analysis as required.
   •   Identified key concerns and some possible solutions.
   •   Prepared a cost budget addendum to support the impact analysis.

USAID’s impact analysis identified risks that included security, investment funding,
immature technology, and operational issues for managing an IPv6 network. It also
provided mitigating approaches to reduce some of the identified risks. The Agency
proposed solutions to address some of the risks that were based on assumptions
developed prior to the June 2006 OMB milestone date. Among the concerns that the
Agency identified in its impact analysis were the following information security and
training risks:

   •   Information Security – The new protocol [IPv6] is a significant change in how
       networks transport information. All existing tools, along with relative policies and
       procedures, need to be evaluated to see if they can provide the same
       functionality or if they need to be modified, replaced, or augmented…and that
       USAID needs to provide the same or greater protection in the IPv6 environment
       as is in place for IPv4.
   •   Training – The security operations staff would need training and additional tools
       to be able to identify IPv6 traffic for the types of vulnerabilities they protect
       against now using IPv4. Additionally, the Agency would need to develop a
       training plan for the various operating groups [formerly IRM Operations] within
       the Office of the Chief Information Officer.

The risks identified in the Agency’s impact analysis are not considered to be urgent
concerns that require immediate attention because the Agency’s network has not
transitioned to IPv6. However, the concerns are significant issues to be considered
when supporting a network transitioning to IPv6. In its impact analysis, the Agency
recognized that some risks could not be addressed based on the technological maturity
of available products, technical standards, and specifications existing at that time.

As of May 2008, there still was no immediate urgency for the Agency to adopt IPv6,
particularly when IPv6 standards and technical requirements for the U.S. Government
continue to evolve. The U.S. Government, however, continues to make progress in



                                                                                         7
addressing the IPv6 challenge by developing technical standards, specifications, and
testing programs.

For example, the NIST publication “A Profile for IPv6 in the U.S. Government – Version
1.0, Special Publication 500-267 (2nd draft)” and its associated proposed testing
program are to provide the technical basis upon which long-term U.S. Government IPv6
adoption plans and policies can be based. The profile is not intended for near-term uses
(e.g., the June 2008 requirements described in M-05-22). Instead, as a forward-looking
strategic plan, the profile’s recommendations are targeted for 2010 and beyond.
Additionally, the NIST publication states that “while significant commercial
implementations have and continue to emerge, broad vendor product lines are currently
at varying levels of maturity and completeness. Until there is time for significant market
forces to effectively define de facto standard levels of completeness and correctness,
product testing services are likely needed to ensure the confidence and to protect the
investment of early IPv6 adopters.”

Because testing services and standards have not been finalized, USAID officials
indicated that they have relied on vendor representations and the Agency’s own testing
for IPv6 capability. USAID has been identifying and replacing non-IPv6 network
backbone equipment as part of its multiyear technology refresh program to replace older
equipment. The Agency plans to disable IPv6 on its production network (i.e., outside a
test lab environment) after its IPv6 demonstration test to OMB. 5

However, USAID’s management provided comments that the Agency will continue to
test products supporting IPv6 and update how it would address identified risks in its
impact analysis beyond June 2008 on the basis of research and testing.




5
   Subsequent to the fieldwork, the Agency notified OMB on June 10, 2008, that it had completed
its IPv6 demonstration test through the Internet with external peers in March 2008. The OIG did
not review the IPv6 demonstration test results.


                                                                                             8
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID did not have any comments regarding the
findings. USAID’s comments from the Office of the Chief Information Officer are
included in appendix II.




                                                                                9
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General, Information Technology and Special Audits Division,
performed this audit to determine whether USAID developed, in accordance with Office
of Management and Budget (OMB) guidance, (1) a complete inventory of existing
Internet Protocol version 6 (IPv6) compliant devices and (2) a complete analysis of fiscal
and operational impacts and risks of migrating to IPv6.

We conducted this performance audit in accordance with generally accepted
Government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Audit fieldwork was conducted between November 2007 and May 2008, primarily at
USAID headquarters in Washington, DC; the Tech Hub in Rosslyn, VA; and the
Beltsville Information Management Center and the Teleport Center in Laurel, MD. The
audit team met several times with the IPv6 project team lead and USAID technical and
network experts associated with the project.

In support of our audit objectives, we evaluated the Agency’s actions and responses to
OMB memorandum M-05-22 requirements and milestones for transitioning from IPv4 to
IPv6. Specifically, we evaluated whether the Agency—

              By November 15, 2005
                 • Completed an inventory of IP-aware devices in its network
                    backbone.
              By June 30, 2006
                 • Completed an inventory of IP-aware applications and peripherals
                    with dependencies on its network backbone.
                 • Completed an IPv6 transition impact analysis.
              By June 30, 2008
                 • Is on target to complete its network backbone transition to IPv6.

The audit reviewed interpretive documentation issued by the Federal Chief Information
Officers Council’s (CIOC) Architecture and Infrastructure’s IPv6 Working Group,
proposed Federal Acquisition Regulations for IPv6, and the National Institute of
Standards and Technology’s (NIST) “A Profile for IPv6 in the U.S. Government – Version
1.0, Special Publication 500-267,” in support of OMB M-05-22. We also obtained and
reviewed a joint publication issued by NIST and the National Telecommunications and
Information Administration, titled “Technical and Economic Assessment of Internet
Protocol Version 6 (IPv6),” dated January 2006.

We also included in our scope the control procedures for the disposal and surplus of
excess equipment to ensure that any nonvolatile memory or other data storage



                                                                                       10
component within the Agency’s network backbone was effectively erased upon device
disposal or surplus. Additionally, OMB, through guidance issued by the CIOC, required
demonstration of IPv6 network backbone compliance for the June 30, 2008, milestone
by having executive agencies perform specific tests and document the results.
Consequently, we obtained and reviewed documentation on the IPv6 test procedures
and applicable test results that were performed in 2007 by USAID engineers and
systems contractors to show support for the Agency’s compliance. At the start of this
audit, the Agency had not yet completed its demonstration tests through the Internet with
external peers; however, the Agency planned to complete these tests prior to June 30,
2008. Subsequent to our fieldwork, the Agency notified OMB on June 10, 2008, that it
had completed its IPv6 demonstration test through the Internet with external peers in
March 2008. We did not review the March 2008 IPv6 test results.

Methodology
For the first audit objective, we obtained and reviewed the Agency’s inventory list of
existing network backbone devices that represented its metropolitan area network
(MAN). To determine the accuracy and completeness of the Agency’s network
backbone inventory listing, we (1) traced all 24 items on the inventory list to their
physical locations and (2) traced equipment items at their physical locations that were
identified by Agency engineers as belonging to the network backbone (i.e., MAN) to the
equipment inventory list. For the purposes of this test, we established a 10 percent
materiality threshold, which meant that three or more items identified as deficient would
be deemed material.

For the second audit objective, we obtained a copy of the Agency’s impact analysis to
determine whether it was completed. We interviewed the Agency IPv6 project lead to
learn how the analysis was prepared and reviewed, and discussed the strategy for
mitigating risks and concerns identified in the Agency’s impact analysis. We reviewed
guidance issued by the CIOC to identify some of the elements that may be considered in
an agency’s impact analysis for migrating to IPv6. Based on our review of the potential
elements that could be represented in an impact analysis and the content of the
Agency’s impact analysis, we subjectively concluded that the analysis was substantially
complete for meeting and addressing risks associated with the June 30, 2008, network
backbone demonstration test.




                                                                                      11
                                                                           APPENDIX II



MANAGEMENT COMMENTS


                                                    August 20, 2008


MEMORANDUM


TO:           IG/A/ITSA, Melinda G. Dempsey

FROM:         M/CIO, Phil Heneghan /s/

SUBJECT: Draft Audit of USAID’s Implementation of Internet Protocol Version 6 (Audit
Report No. A-000-08-XXX-P)


Thank you for the opportunity to comment on the Draft Audit of USAID’s Implementation
of Internet Protocol Version 6 (Audit Report No. A-000-08-XXX-P)

After extensive review, the Office of the Chief Information Officer has no comments on
the Findings.

Please accept my thanks for the cooperation and courtesies extended to my staff duing
this audit by members of your office.




Cc:     Carl Crawford
        Gretchen Larrimer




                                                                                         12
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
